                                     Office of Inspector General
                                    Corporation for National and
                                             Community Service



i
$




             Pre-Audit Survey of the
        Arizona Governor's Commission
i        On Service and Volunteerism
!
t             OIG Report Number 04-12
!




                           Prepared by:

                    COTTON & COMPANY LLP
                333 North Fairfax Street, Suite 401
                    Alexandria, Virginia 22314




    This report was issued to Corporation management on April 1, 2004. Under the
    laws and regulations governing audit follow up, the Corporation is to make final
    management decisions on the report's findings and recommendations no later
    than October 1, 2004, and complete its corrective actions by April 1, 2005.
    Consequertly, the reported findings do not necessarily represent the final
    resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04-1 2

         Pre-Audit Survey of Corporation for National and Comnlunity Service Grants
                                       Awarded to the
               Arizona Governor's Commission on Service and Volunteerism

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation) retained Cotton & Company LLP to perform a pre-audit survey of the Arizona
Governor's Commission on Service and Volunteerism. The objectives of the pre-audit survey
were to evaluate: (1) the adequacy of the pre-award selection process; (2) the administration of
grant funds; and ( 3 ) grant monitoring. The audit period included Program Years 2000-200 1 and
2001-2002.

The Commission was awarded Corporation AmeriCorps Formula, Program Development and
Training, and Administrative grants totaling $5,777,235 for Program Years 2000-2001 and 2001-
2002. During the pre-audit survey program years, the auditors noted the following: the
Commission did not have documentation to prove that subgrantee monitoring information was
used to select subgrantees for renewal, the site visit monitoring tool did not adequately document
the Commission's monitoring efforts, and controls were inadequate to ensure that AmeriCorps
members were informed of prohibited activities. The auditors do not recommend that a full-
scope audit be performed. They recommended that the Corporation follow up with the
Commission to determine that corrective actions have been implemented.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided the Arizona Governor's Commission on Service and
Volunteerism and the Corporation with a draft of this report for their review and comment.
Their responses are included in their entirety as Appendices C and D, respectively.

Background

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions.,
nonprofit entities, tribes, and territories to assist in the creation of full-time and part-time national
and community service programs. Currently, under the Act's requirements, the Corporation
awards approximately three-fourths of its AmeriCorps*State/National funds to State
commissions. The State commissions, in turn, fund and oversee the subgrantees that execute the
programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.
                       OFFICEOF INSPECTORGENERAL
                         FOR NATIONAL
                CORPORATION           AND COMMUNITY
                                                  SERVICE
                         PRE-AUDIT SURVEY O F THE
          ARIZONA GOVERNOR'S COMMISSION O N SERVICE AND VOLUNTEERISM




Section                                                                          Page
Summary of Results                                                                1

Background
  The Corporation for National and Community Service
  The Arizona Governor's Commission on Service and Volunteerism

Objectives, Scope, and Methodology

Results of Fieldwork
  Internal Control
  Selecting Subgrantees
  Administering Grant Funds
  Evaluating and Monitoring Grants

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: Arizona Governor's Commission on Service and Volunteerism Response

Appendix D: Corporation Response
January 23,2004


Office of Inspector General
Corporation for National and Community Service


Cotton & Company LLP performed a pre-audit survey of the Arizona Governor's Commission
on Service and Volunteerism (Commission). The pre-audit survey was performed in accordance
with the terms of the statement of work dated June 24,2003, by and between Cotton & Company
and the Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation).

The primary survey objectives were to evaluate the:

               adequacy of the Commission's pre-award selection process,

               procedures for fiscal administration of Corporation grants; and

       0       effectiveness of Commission procedures for monitoring subgrantees, including
               ArneriCorps member activities, service hours, statistics, and other information
               related to program accomplishments.

We also issued a letter to the OIG concerning our conclusions on audit risk and
recommendations as to the nature and scope of additional procedures.

We conducted our procedures in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We were not engaged to and did not conduct an audit
of financial statements, the objective of which would be the expression of an opinion on the
Commission's controls or on its compliance with laws and regulations. Accordingly, we do not
express such an opinion. Further, our procedures were not sufficient to express an opinion on the
Commission's internal control or on its compliance with laws, regulations, contracts, and grants.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported.

This report is intended solely for the information and use of the OIG and is not intended to be,
and should not be, used by anyone other than the OIG.

COTTON & COMPANY LLP



Sam Hadley, CPA
Partner
SUMMARY OF RESULTS

Cotton & Company LLP was engaged by the Office of Inspector General (OIG), Corporation for
National and Community Service (Corporation), to provide an assessment of the systems and
procedures in place at the Arizona Governor's Commission on Service and Volunteerism
(Commission) for administering AmeriCorps grants and monitoring the fiscal activity of
subgrantees. The primary purposes of the pre-audit survey were to evaluate the adequacy of the:

              internal controls over grant management;
              pre-award selection process;
       0      administration of grant funds; and
       0      evaluation and oversight of subgrantees.

Based on results of procedures performed, we offer the following preliminary assessments
regarding the Commission's systems for administering AmeriCorps grants:

       rn     No documentation existed to prove that the Commission used subgrantee
              monitoring results in the renewal selection process.

       rn      The site visit monitoring tool did not adequately document the Commission's
               monitoring efforts.

               The Commission had inadequate controls to ensure that AmeriCorps members
               were informed of prohibited activities.

The findings and recommendations presented in this report describe these matters in detail.

During the period of our pre-audit survey, the Commission's AmeriCorps grants were not
audited as a major program under Office of Management and Budget (OMB) Circular A-1 33.

Based on the results of our preliminary assessment, we do not recommend performing a full-
scope audit for Program Years 2000-2001 and 2001-2002. We recommend that the Corporation
follow up with the Commission to determine that appropriate corrective actions have been taken
to address conditions reported herein, and that the Corporation considers these conditions in its
future oversight and monitoring of the Commission.

BACKGROUND

The Corporation for National and Community Service

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community
Service. The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those
who make a substantial commitment to service.
The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, tribes and territories to assist in creating full-time and part-time national and community
service programs. Through these grants, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs throughout the nation, with special
attention focused on needs related to poverty. In return for their service, program participants
may receive a living allowance and a monetary award for educational purposes.

The Corporation awards approximately 75 percent of its ArneriCorps funds to State
commissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their States.

Additionally, State commissions, acting as grantees, distribute funds to subgrantees to enable
them to administer service programs. State commissions are responsible for monitoring
subgrantee compliance with grant requirements. The commissions are also responsible for
providing training and technical assistance to service programs. State commissions are,
however, prohibited from directly operating service programs.

The Arizona Governor's Commission on Service and Volunteerism

The Arizona ArneriCorps programs are administered by the Arizona Governor's Commission on
Service and Volunteerism, which is part of the Division for Community and Youth
Development, a subdivision of the Governor's Office for Children, Youth, and Families.

The Commission voted in July 2000 to start the Arizona Foundation for Service and
Volunteerism, a non profit foundation to promote long-range sustainability for the Commission.
As a charitable organization under Internal Revenue Code tj 50 1(c)(3), the Foundation's
principal mission is to seek funding that will benefit the State's volunteer infrastructure.

The Con~missionoperates with a three-person staff: an Executive Director, a Program Director,
and a Training Officer. To adequately segregate duties with limited resources, many of the
financial functions of the Commission, such as payments to subgrantees and cash management
activities, are handled by other divisions of the Governor's office.

As part of the Arizona State Government, the Commission is included in the annual OMB
Circular A-133 audit. In the past three fiscal years, however, the Commission's awards have not
been selected as major programs, and the Commission has not received any other audits or
reviews by the State. The Arizona State Government's A-133 audit has received an unqualified
opinion for the past several years, indicating that the State's documented control environment is
adequate for Federal grants management. During our review, we noted that the Commission
follows State procedures and internal controls. Therefore, while Commission grants were not
specifically tested, controls established by the State, and used by the Commission, appear to be
adequate for administering Federal awards.

The Commission provided the following information for Program Years 2000-2001 and 2001 -
2002:
                                         -                     Program Years                 ---
Funding Source and Type                     2000-2001      2000-2001   2001-2002        2001-2002
-                                            Budget         Actual       Budget          Actual -
Administrative Grant                       $ 280,785                     $ 240,937     $     229,579
PDAT                                          113,000                       123,000           38,909
AmeriCorps, including Promise Fellows       2,246,492                     2,450,98 1       2,O 17,030
Learn and Serve                               198,500                             0                 0
Disability Fund                                     0                       123,540            16,320
State Matching Fund                         1,433.969                    1,768,011         1,792,56(5
Total Funding                              $4>272:746                    $4.706.469     $4.094.4 1 3



    OBJECTIVES, SCOPE, AND METHODOLOGY

    The OIG engaged Cotton & Company to assess systems and procedures in place at the
    Commission for administering AmeriCorps grants and monitoring subgrantee fiscal activity.
    The primary purpose of this pre-audit survey was to evaluate the adequacy of the:

                  internal controls over grant management;
                  pre-award selection process;
                  administration of grant funds; and
                  evaluation and oversight of subgrantees, including fiscal monitoring of
                  AmeriCorps subgrantees, the monitoring of program accomplishments and other
                  performance statistics, and the monitoring of AmeriCorps member eligibility and
                  service-hour reporting.

    Our survey included the following procedures:

                  Reviewing applicable laws, regulations, grant agreements, and provisions; the
                  Corporation's State Administrative Standards Tool; and other information to gain
                  an understanding of legal, statutory, and programmatic requirements.

                  Reviewing the State's recent OMB Circular A-133 reports.

                  Obtaining information from Commission management to complete the flowcharts
                  in Appendix A, which show the disbursement of Corporation funding to the
                  Commission for Program Years 2000-2001 and 2001-2002.

                  To the extent possible, conducting inquiries, observations, investigations, and
                  examinations of a limited sample of source documents to meet the objectives and
                  methodology specified in Appendix B.
The findings and recommendations presented in this report summarize the results of our work.
We discussed all findings with Commission management during an exit conference on January
23, 2004. We also provided a draft of this report to the Commission and the Corporation for
their responses, which are included as Appendices C and D, respectively.

RESULTS OF FIELDWORK

Internal Control

According to 45 CFR 5 2541.200(b)(l), which prescribes standards for financial management
systems, the Commission must maintain systems that provide "[alccurate, current, and complete
disclosure of the financial results of financially assisted activities . . . ." Subsection (b)(3)
requires the Commission to provide "[elffective control and accountability . . . for all grant and
subgrant cash, real and personal property, and other assets."

As an entity within the State of Arizona, the Commission follows the State ofArizona
Accounting Policy and Procedure Guide, the New Employee Handbook, and other State
guidance. Additional written procedures are documented in the Commission's Grant &
Financial Management Handbook, which contains all of the grant management policies for the
Commission, including general renewal application guidelines.

The Governor's Office, through the State's accounting system and State Procurement Office,
provides support to the Con~missionin its management of Corporation funds and provides
additional segregation of duties. The State accounting system has separate codes specific to eac'h
Federal grant and program year, to track Commission activity, and to track payments to each
subgrantee.

In addition, the Commission has a separate database that tracks payments to each subgrantee
against the subgrantee's budget, recording the date of payment and other information. The
Comn~issionmust provide database information along with a payment request to the Governor's
Accounting Office for payment. The Accounting Office ensures that payments are made to
subgrantees only with proper approval and available grant funds. This office also is responsible
for drawdowns, and prepares periodic drawdown requests based on expenditures incurred in each
grant code. The Commission does not draw down Federal funds in advance of disbursement and
does not provide advances to its subgrantees.

Selecting Subgrantees

Each State Commission, according to 45 CFR $ 2550.80(b)(l), is required to "[aldminister a
competitive process to select national service programs to be included in any application to the
Corporation for funding . . . . "

The Commission administers an open, competitive process to select national service subgrantees.
It makes notification of available funding through a variety of sources, in accordance with State
Procurement Office rules. The Commission also holds pre-application conferences to answer
applicants'questions and clarify policies.
Review committees conduct pre-award financial and programmatic risk assessments of potentiall
subgrantees in two separate evaluation phases. In each phase, a separate review committee is
comprised of three diverse and independent committee members. Technical advisors and a
procurement specialist are available for guidance.

Guidelines for the evaluation process are provided to the first review committee. After
discussion, the potential subgrantees receive a score of pass or fail. Those passing phase one
repeat the evaluation process with the second review committee. Successful and unsuccessful
applicants are notified of the results, and evaluation documents are available for review after the
award process is complete.

Issue: No documentation existed to indicate that past subgrantee monitoring results were
used in the renewal selection process.

The Commission could not demonstrate that it used past subgrantee evaluations in its grant
renewal selection process. Selection procedures included evaluating results of past monitoring,
such as Quarterly Progress Report Feed Back Forms and site visit monitoring tools, but the
selection documents did not indicate whether this information was reviewed and considered.
The Commission explained that it did not realize the value of documenting everything that was
reviewed for the selection process. Without this documentation, a possibility exists that past
evaluations were not properly considered in the selection process, and subgrantees with poor
performance could erroneously receive funding for another program year.

Recommendation: We recommended that the Commission create a standardized renewal form.,
such as a checklist, that documents the full evaluation process, including reviews of previous
monitoring results.

Administering Grant Funds

According to 45 CFR tj 2550.80(d), State commissions "will be responsible for administering the
grants and overseeing and monitoring the performance and progress of funded programs."

The Commission provides reporting guidance for Financial Status Reports (FSRs), Periodic
Expense Reports (PERs), and Quarterly Progress Reports to subgrantees. Subgrantee reporting
due dates are set to allow for the Commission to report to the Corporation in a timely manner.
The Commission electronically tracks subgrantee submissions of reports, and sends e-mails to
subgrantees alerting them of report due dates. The Commission agrees PERs to expense ledgers
to ensure the accuracy of FSRs.

The Commission communicates document-retention requirements to subgrantees at orientation
sessions as well as during the closeout process.

As noted above, the Commission has adequate controls and segregation of duties for reimbursing
subgrantee expenditures.
Evaluating and Monitoring Grants

To comply with 45 CFR § 2550.80(e), the Commission "in concert with the Corporation, shall be
responsible for implementing comprehensive, non-duplicative evaluation and monitoring
systems."

The Commission's AmeriCorps Program Officer reviews Quarterly Progress Reports submitted
online and prepares Quarterly Report Feedback Forms for each subgrantee. The Commission
evaluates Quarterly Progress Reports to measure subgrantee programmatic accomplishments.
The Commission reviews monthly PERs and agrees them to subgrantee expense ledgers to
determine the accuracy and propriety of costs.

The Commission conducts two-day formal site visits of subgrantees in the first year of an
ArneriCorps grant. The site visit focuses on program management and compliance issues at both
subgrantee and host sites. Subgrantees are provided with a site visit report outlining program
strengths, weaknesses, and findings of noncompliance. The Commission tracks compliance
issues until they are resolved. Additional site visits are performed on a risk basis, focusing on
programs with issues based on quarterly programmatic and fiscal reports, other compliance
issues, and those programs pending renewal.

The Commission has controls in place to collect and review annual subgrantee OMB Circular A-
133 reports. The Commission uses a risk assessment worksheet to document this review.

Issue: Monitoring tools did not fully and clearly document efforts performed.

The site visit monitoring tool did not fully and clearly document the Commission's monitoring
efforts. For example, the monitoring tool did not clearly indicate if information submitted came
from the subgrantee or the Commission, if information was obtained through inquiry, or if the
information was verified by Commission staff. The Commission did not detail the names of
interviewees or subjects discussed during member interviews. The Commission noted that it
used the monitoring tool provided by the Corporation and performed all necessary monitoring
activities, but did not realize the value of the additional documentation. The additional
documentation would allow future users of the monitoring tool to better understand what
transpired during the site visit and more easily follow up on any issues documented.

Recommendation: We recommend that the Commission fully document details of the site visit
reviews, including:

               Names of the members whose files were reviewed, with issues or concerns noted.

               Names of members and supervisors interviewed, with discussion notes.

               Identification of documents reviewed to verify the existence of controls (e.g., Ma:y
               2003 bank reconciliation, three vouchers in the third quarter PER, etc.).
               Notation of procedures taken to verify information provided (e.g., persons
               interviewed, documents reviewed, information reconciled, etc.).

Issue: The Commission had inadequate controls to ensure that AmeriCorps members were
informed of prohibited activities.

The Commission did not have strong enough controls to ensure that members were not
performing prohibited activities. The Commission educates members and supervisors about
prohibited activities by discussing and providing ArneriCorps handbooks and member contracts
during training classes. The Commission's primary method of ensuring that members do not
perform prohibited activities is through the member contract, which explicitly proscribes a list of
activities.

In three of four subgrantee member contracts reviewed, the contracts did not include a complete
list of prohibited activities. The complete list is provided in the member contract recommended
and provided by the Commission to subgrantees. While some subgrantees may be trained
regarding prohibited member activities, the Commission has no assurance that members did not
perform prohibited activities without a signed member contract that lists all proscribed activities.

Recommendation: We recommend that the Commission strengthen controls to ensure that
members are not performing prohibited activities by:

       0       Requiring subgrantees to use the standard contract recommended by the
               Commission, or, alternatively, requiring subgrantees to submit their contracts to
               the Commission for approval.

               Reviewing member contracts during site visits to ensure that approved contracts
               are in use.

               Obtaining an alternate certification from members and supervisors that members
               are not participating in prohibited activities.

We also recommend that Commission site reviewers document whether AmeriCorps members
know which activities are prohibited.
                                                                                                                    APPENDIX A
                                                                                                                      Page 1 of 2

                                        Office of Inspector General
                              Corporation for National and Community Service
                                   State Commission Pre-Audit Survey
                        Arizona Governor's Commission on Service and Volunteerism
                                       Funding Hierarchy Flowchart



                                 Corporation for National and Community Service
                                           Funding to the Commission
                                            For the Period 2000-200 1




     AmeriCorps
      Formula
       Funds
                           AmeriCorps
                           Competitive
                             Funds
                                             -  Learn and
                                                  Serve
                                                 Funds
                                                                         PDAT
                                                                         Funds
                                                                                            Administrative
                                                                                               Funds
                                                                                                                   Promise Fellow
                                                                                                                       Funds


       $929,995            $1,198,497                                   $1 13.000             $280,785                $1 18,000

        Match                Match                Match                                        Match                   Match
       9338,406             $729,707             $85.07 1                                     $280.785                  $0




                           Total CNCS Funds Retained by the Commission $452,285

                                   Total Commission Matching Funds $1,433,969

                             Total CNCS Funds Awarded to Subgrantees $2,386,492




      AmenCorps
                                 +
                           ArneriCorps
                                                      +
                                             Leam and Serve
                                                                             +
                                                                          PDAT
                                                                                                 +
                                                                                            Administrative
                                                                                                                        +
                                                                                                                   Promise Fellows
       Formula             Competitive
       $540.8 1 1           $906,801             $193,087                $226,590              $196,342               $117,917



I       Match
       $412,437

    Total # of SUBS
                              Match
                             $985,68 1

                          Total # of SUBS
                                                  Match
                                                 $152,838

                                             Total # of SUBS         Total # of SUBS
                                                                                                Match
                                                                                               $2 1 1,287

                                                                                            Total # of SUBS
                                                                                                                       Match
                                                                                                                      $103,084

                                                                                                                   Total # of SUBS
            7                     4                  7                       0                       1                     1
     Total # of Sites     Total # of Sites    Total # of S ~ t e s   Total # of S ~ t e s   Total # of S ~ t e s    Total # of Sites
           30                    34                  7                       0                     1                       7
                                                                                                   APPENDIX A
                                                                                                     Page 2 of :2

                                   Office of Inspector General
                         Corporation for National and Community Service
                               State Commission Pre-Audit Survey
                   Arizona Governor's Commission on Service and Volunteerism
                                  Funding Hierarchy Flowchart



                            Corporation for National and Community Service
                                      Funding to the Commission
                                       For the Period 200 1-2002



                                                         II
 ArneriCorps          ArneriCorps                            PDAr           AdrninlsWative     Prorn~seFellow
  Formula             Cornpetltive        Funds              Funds              Funds              Funds
   Funds                Funds

 $1,105,016           $1,222,965        $123.540           $123.000           $240,937

   Match                Match             Match                                Match               Match
  $5 14,760            $917.299           NIA                                 $240.952            495,000




                      Total CNCS Funds Retained by the Commission $402,477

                              Total Commission Matching Funds $1,768,0 11

                        Total CNCS Funds Awarded to Subgrantees $2,535,981




       1
 AmerlCorps
                                             1
                                         D~sab~lity
                                                                1
                                                             PDAT
                                                                                1
                                                                            Administrative
                                                                                                   1
                                                                                               Prom~seFellows
  Formula
  $917,839                                $16,320            $38,909           $229,579            $97,800

    Match                                                                       Match               Match
   $566,096                                                                    $333,943            $86,229

Total # of SUBS                       Total # o f SUBS   Total # of SUBS    Total # of SUBS    Total # of SUBS
        7                                      I                 0                  1                 I
Total # of Sites                      Total # of Sites   Total # of Sites   Total # of Sites   Total # of Sites
       41                                     6                  0                  1                 6
                     B
              APPENDIX

DETAILED
       ENGAGEMENT
               OBJECTIVES
                       AND METHODOLOGY
                                                                                    APPENDIX B
                                                                                      Page 1 of 4


                               Office of Inspector General
                     Corporation for National and Community Service
                           State Commission Pre-Audit Survey
               Arizona Governor's Commission on Service and Volunteerism
                    Detailed Engagement Objectives and Methodology


INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and documentation maintained by
the Commission to provide reasonable assurance that transactions were properly recorded and
accounted for to: (1) permit preparation of reliable financial statements and federal reports; (2)
maintain accountability over assets; and, (3) demonstrate compliance with laws, regulations, and
other compliance requirements.

To achieve these objectives, we reviewed promulgated guidance as well as identified internal
control objectives and characteristics related to the Commission's ability to ensure compliance
with federal laws, regulations, and program compliance. We interviewed Commission and
Governor's Accounting Office managers and reviewed related documents, including the State ojf
Arizona Accounting Policy and Procedure Guide, to gain an understanding of the control
environment. We also reviewed the operating procedures in place regarding allowable costs,
eligibility, cash management, matching, period of availability of Corporation funds,
procurement, suspension and debarment, program income, and Commission reporting to the
Corporation.

We reviewed reports prepared by both Commission and Governor's Accounting Office staff,
such as payment requests, accounting expenditures reports, and reports of available cash balance,
for accuracy and completeness. We compared internal documents to financial reports submitted
to the Corporation as well as reports submitted to the U.S. Department of Health and Human
Services for drawdown activities. We reviewed subgrantee expenditure reports and Commission
financial reports to note the controls on matching requirements.

SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees. We examined policies and procedures related to assessing the
adequacy of potential subgrantee financial systems, subgrantee controls to administer a federal
grant program, and processes for preventing conflicts of interest in the selection process at the
Commission. We also determined if the Commission's systems and controls for selecting
subgrantees appeared to be functioning as designed.

To achieve these objectives, we interviewed key Commission management and documented
procedures performed by the Commission during the pre-award financial and programmatic risk
                                                                                 APPENDIX I3
                                                                                   Page 2 of 4

assessment of potential subgrantees. We also interviewed key Commission management and
documented procedures performed by the Commission to select subgrantees. Next, we obtained
and reviewed guidance provided to selection officials and documentation supporting the
evaluation and grant awards process. We reviewed the office policies for selection of
subgrantees in the Commission's Grant 6; Financial Management Handbook.

To test whether the Commission's systems and controls related to selecting subgrantees were
functioning as designed, we took a judgmental sample of applicants, including new award
recipients, renewals, and those denied funding. We then reviewed all supporting documentation,
including conflict-of-interest forms, risk assessment tools, evaluation committee packages,
correspondence, memoranda, and e-mails.

ADMINISTERING GRANT FUNDS

Our objectives were to:

              Assess the adequacy of systems and controls used by the Commission to maintain
              appropriate financial management systems to disburse funds and to track
              Commission and program expenses according to legal and grant requirements.

       .      Determine if the Commission's organizational structure, staffing level, and
              staffing mix were conducive to effective grant administration.

              Determine if the Commission provided adequate guidance to subgrantees for
              maintaining financial systems, records, and supporting documentation, and for
              reporting subgrantee activity.

              Assess the adequacy of financial systems and Commission documentation to
              support oversight of subgrantees and required reporting to the Corporation, such
              as FSRs, enrollment and exit forms, change-of-status forms, and audit reports.

       rn     Determine if the Commission had procedures in place to verify the accuracy and
              timeliness of reports submitted by subgrantees.

To achieve the above objectives, we interviewed key Commission and Governor's Accounting
Office managers, and documented policies and procedures used to administer grant funds. We
also gained an understanding of both manual and automated systems used by Commission and
Governor's Accounting Office personnel to administer grant funds. We obtained and reviewed
the Commission's official policies and procedures related to administering grant funds, as
established in the Commission's Grant 6; Financial Management Handbook.

We then discussed controls over grant expenditures and subgrantee match information with
Commission management. We reviewed documents supporting the established controls over
matching. We also tested whether the Commission's systems and controls related to
                                                                                  APPENDIX B
                                                                                    Page 3 of 4

administering grant funds were functioning as designed. We reviewed FSRs for a judgmental
sample of subgrantees to test for timeliness of submission. We also reviewed financial reports
prepared by the Governor's Accounting Office and reconciled them to amounts reported on
FSRs.

EVALUATING AND MONITORING GRANTS

Our objectives were to:

              Identify and assess the adequacy of systems and controls used by the Commission
              to implement a comprehensive evaluation and monitoring process for its
              subgrantees.

              Determine if the Commission had an established subgrantee site visit program in
              place and assess the effectiveness of its design in achieving monitoring objectives.

               Determine the adequacy of Commission procedures to assess subgrantee
               compliance with Corporation regulations (e.g., eligibility of members, service-
               hour reporting, prohibited activities, payment of living allowances to members,
               and allowability of costs claimed under grants by subgrantees).

       0       Assess the adequacy of Conlmission procedures for obtaining, reviewing, and
               following up on findings included in subgrantee single audit reports, where
               applicable.

               Determine if program goals were established, and if program results and
               performance statistics were accurately reported and compared to these goals.

       .       Assess the adequacy of procedures in place to evaluate whether subgrantee
               programs were achieving their intended purposes.

To achieve these objectives, we interviewed key Commission managers and documented policies
and procedures used by the Commission for monitoring and evaluating subgrantees, including
controls over obtaining and reviewing subgrantee OMB Circular A-133 reports. We obtained
and reviewed Commission policies and procedures related to monitoring and evaluating
subgrantees, as established in the Commission's Grant & Financial Management Handbook.

To determine if established controls were in place, we judgmentally selected a sample of
subgrantees and reviewed monitoring documentation, including site visit monitoring tools. We
also reviewed training documents and member contracts to determine if proper monitoring of
prohibited member activities was being conducted.

We tested the Commission's processes and controls related to evaluating and monitoring
subgrantees to determine if they were functioning as designed. Our testing methodology
                                                                              APPENDIX R
                                                                                Page 4 of 4

included selecting a judgmental sample of subgrantee files and reviewing documentation to
verify that policies and procedures were in place and functioning properly. We further
determined if the Commission had received and reviewed OMB Circular A-133 audit reports
from subgrantees.

We then discussed the Corporation's Government Performance and Results Act goals with
Commission management. For a judgmental sample, we reviewed subgrantee evaluation files to
ensure that they included program accomplishment information.
                       APPENDIXC

ARIZONA GOVERNOR'S COMMISSION ON SERVICE AND VOLUNTEERISM
                                    STATE OF ARIZONA




March 23, 2004

Office of Inspector General
Colporation for National and Community Serv~ce


The Arizona Governor's Commission on Sewice and Volunteerism (Commission)
received the Pre-Audit Survey prepared by Cotton R: Company LLP on February 23,
2004. As per your request, the Commission has prepared its response to issues 1-3 as
follows:

Issue # I : N o documentation existed to indicate that past subgrantee monitoring results
were used in the renavul selection process.

A4rizonaResponse:

Thc Governor's Office for Children, Youth & Families (GOCYF) has created a
standardized Renewal Checklist that documents [he fidl evaluation process, LIicludUlg
reviews of previous morutonng results for each subgrantee. Please see attached
'Xenewal Checklist."

The GOCYF has amended its office-wide policy and procedures in the Grants and
Financial Management Handbook to include this additional documentation in the renewal
process. Please see page 20 of the attached "Procurement Process" section of the Grants
and Financial Management Handbook.

Subsequently, the Commission has incorporated the Renewal Checklist and has
implemented these additional steps in the current renewal process:
   -   The Commission included a "Review Process Rt Criteria" section in the 2004-
       2005 Continuation Application & Guidelines. Please see pages 2-3 of the
       attached "2004-2005 Continuation Application & Guidelines."

       The C o m ~ i s s i o nconvened a formal "Renewal Review Team" and will document
       the process in the grant file upon award of renewals. Award of renewals is
       subject to the Corporation for National and Community Service notice of awards
       in late summer of 2004.

       Each reviewer utilized the Reviewer Comment Skeet. Please see attached
       "Reviewer Comment Sheet."

       The Commission completed the Renewal Checklist for each subgrantee during the
       review process and will include 111 each grant file.

Issue #2: Monitoring fools did not filly and clearly docurtrent efforts performed.

Arizona Response:

The Governor's Office for Clddren, Youth & Families (GOCYF) and the Commission
has revised the site visit n~onitonngtool to filly and clearly document monitoring efforts.
Please see attached "Site Visit Monitoring Tool."

The revised site visit monitoring tool includes the following additions:

       An area for names of the members whose files were reviewed with space for
       issues or concerns @age 5).

       An area to detail the names of members and supervisors interviewed with space
       for dscussion notes (page 2).

       Revised comment portion of each section indicating user to "cite evidence
       showing compliance, record pertinent findings, and document materials
       reviewed."

Subsequently. the Commission will utilize the revised site visit momtonng tool for the
2003-2004 site visits that are scheduled for May and August 2004.
Issue #3: The Commission Itad inadequate controls to ensure that Americorps
members were informed ofprohibited activities.

Arizona Response:

The Cormlrission is strengthening controls to ensure that members are not performing
prohtbited activities by:

       Requiring subgrantees to submit their member contracts to the Commission for
       approval. The requirement was included in the 2004-2005 Continuation
       Application & Guidelines. Please see pages 3 and 9 of attached "2004-2005
       Continuation Application & Guidelines."

       Documenting the review of member contracts to ensure that approved contracts
       are in use and strengthening the prohibited activities section of the site visit
       monitoring tool. Please see pages 14 (1) and 15 (s) of attached "Site Visit
       iMonitoring Tool."

       Mandating that programs add a certification statement on the member time logs
       verifying that members did not participate in any prohibited activities. This
       policy will be phased in during the current 2003-2004 program year and required
       in 2004-2005 program year.


Please let us know if you have questions or need additional information

Sincerely,          LI




Lauren Kielsmeier
Executive Director
Arizona Governor's Commission on Service and Volunteerism
                                      E~fy&h~~
                                      COMMUNITY
                                      SERVICE-




To :          Russell George, Inspegwr General

From:

C'c :         ~ i c ~ t e ~ 6 u i l l e 1 mchief
                                            i n , ~~~l Officer
              Rosie Mauk, Director of AlneriCorps

Date:         March 22, 2004

Subject:      Response to OIG Draft Audit Report 04-1 2 and Management Decision,
              Pre-Audit Survey of the Arizona Governor's Conmission On Service and
              Volunteerism


We ha\,e reviewed the draft Pre-Audit Survey of the Arizona Governor's Commission on
Service and Volunteerism. This serves as both our response to the draft report and the
Corporat~on'sProposed Management Decision. We agrec n ith the auditors'
recommendations and the Co~nrnissionis implementi~lgall three of them. Within the
next four months, the Corporation will follow up with the Comn~issionto confirm that
correcti~~e
          action is complete.




                        i   191 LC\\\lorl\ I i c n i i c \ \ \  -
                                                               L \ ~ \ t u n g * i ~DC
                                 202-606-5000 * n urn nat~onalser\lceorg
                                                                                     n 13525


                       Senior Corps       *   Amencorps     *   Learn and Serve America        The Prer~denl'sCall lo Service
